0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Fifteen
Pennsylvania State Senators, Amici Curiae,
Supporting Petitioners in 19-123, Sharonell Fulton, et
al. v. City of Philadelphia, Pennsylvania, et al., were
sent via Two Day Service to the U.S. Supreme Court,
and 3 copies were sent via Two Day Service and e-mail
to the following parties listed below, this 3rd day of
June, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 507 -0834
rienzi@law.edu
mrienzi@becketlaw.org
Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

I
I

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
Randall L. Wenger
Counsel of Record
Jeremy L. Samek
Independence Law Center
23 N. Front Street, First Floor
Harrisburg, PA 17101
(717) 657-4990
rwenger@indla wcenter .org
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 3, 2020.

agher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

i; dQdO
drh-'il . '~Ct._
Notary Public

Date:

[seal]

~L

